<html>
<title> - THE ROLE OF THE U.S. GEOLOGICAL SURVEY AND THE U.S. FOREST SERVICE IN PREPARING FOR AND RESPONDING TO NATURAL HAZARD EVENTS, AS WELL AS THE CURRENT STATUS OF MAPPING AND MONITORING SYSTEMS</title>
<body><pre>[Senate Hearing 115-500]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 115-500
 
 THE ROLE OF THE U.S. GEOLOGICAL SURVEY AND THE U.S. FOREST SERVICE IN 
 PREPARING FOR AND RESPONDING TO NATURAL HAZARD EVENTS, AS WELL AS THE 
            CURRENT STATUS OF MAPPING AND MONITORING SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2018

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 28-697                   WASHINGTON : 2020
 
 
 
         
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Annie Hoefler, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Camille Touton, Democratic Professional Staff Member
              Rebecca Bonner, Democratic Legislative Aide
              
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Applegate, Dr. David, Associate Director for Natural Hazards, 
  U.S. Geological Survey.........................................     5
Casamassa, Glenn, Associate Deputy Chief, National Forest System, 
  U.S. Forest Service, U.S. Department of Agriculture............    11
Branson, Hon. Pat, Mayor, City of Kodiak, Alaska.................    23
Norman, David K., State Geologist, Washington Geological Survey, 
  Department of Natural Resources................................    39
West, Dr. Michael, Alaska State Seismologist, Alaska Earthquake 
  Center, and Research Associate Professor, Geophysical 
  Institute, University of Alaska Fairbanks......................    44
Berry, Karen, State Geologist and Director, Colorado Geological 
  Survey at the Colorado School of Mines, and President-Elect, 
  Association of American State Geologists.......................    55

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Applegate, Dr. David:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    82
Berry, Karen:
    Opening Statement............................................    55
    Written Testimony............................................    57
Branson, Hon. Pat:
    Opening Statement............................................    23
    Written Testimony............................................    25
    Map entitled ``Maximum Estimated Tsunami Inundation, Kodiak 
      Area, Alaska''.............................................    38
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Casamassa, Glenn:
    Opening Statement............................................    11
    Written Testimony............................................    13
    Slides.......................................................    18
    Responses to Questions for the Record........................    89
CoreLogic:
    Letter for the Record........................................    94
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Norman, David K.:
    Opening Statement............................................    39
    Written Testimony............................................    41
West, Dr. Michael:
    Opening Statement............................................    44
    Written Testimony............................................    46


 THE ROLE OF THE U.S. GEOLOGICAL SURVEY AND THE U.S. FOREST SERVICE IN 
 PREPARING FOR AND RESPONDING TO NATURAL HAZARD EVENTS, AS WELL AS THE 
            CURRENT STATUS OF MAPPING AND MONITORING SYSTEMS

                              ----------                              


                       TUESDAY, JANUARY 30, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here for two purposes this morning. Our first task 
is a business meeting to report four nominations and ratify 
Subcommittee assignments for our new members, Senator Capito 
and Senator Smith. We are awaiting a quorum. We need two more 
or, maybe, three more now. So what I intend to do is go ahead 
and begin our full Committee hearing on natural hazards and 
then if we are able to find a quorum this morning we will take 
a quick break, conduct that business and then get back to you.
    Our focus this morning is on volcanoes, earthquakes, 
landslides, tsunamis, and avalanches--natural hazards that many 
Americans experience on a somewhat regular basis and the 
measures being taken to minimize risks from those hazards.
    We had an opportunity just yesterday, in speaking with the 
Mayor of Kodiak who is here as one of our witnesses today, but 
we had a very timely event just last week. We had a magnitude 
7.9 earthquake that struck off the coast of Alaska, about 175 
miles southeast of Kodiak, in the Gulf of Alaska. And it was 
just a little bit after midnight that the earthquake struck, 
about 12:30. A lot of folks were already in bed. That was the 
Monday of the government shutdown, Monday evening.
    But thanks to the good work from the Alaska and National 
Earthquake Centers and the National Tsunami Warning Center, a 
tsunami alert was issued and communities from Chignik to 
Cordova to Kodiak evacuated to higher ground. It is reassuring 
to know that the Earthquake and Tsunami Centers, who provide 
critical information for life-saving purposes, were not 
impacted by the shutdown.
    We worked real quickly to make sure--is everybody up? Is 
everybody doing what they were supposed to be doing, even in 
the midst of a shutdown? So thank you for that.
    We do understand that the earthquake caused some damage, 
including in Kodiak, but the tsunami associated with it was 
quite small and that means that, basically, we just got lucky 
and the people of, not only Kodiak, but many of our coastal 
communities just felt like they just got lucky.
    And as many Alaskans know, that is not always the case. In 
2015, we had 53 landslides that came down in Sitka, Alaska, 
including one that tragically claimed three lives. Earlier this 
winter, Alaska lost a member of the skiing community to an 
avalanche in Hatcher's Pass, right in Anchorage's backyard.
    I am frequently reminded of the magnitude 9.2 earthquake 
that struck Alaska on Good Friday back in 1964. It is the 
largest earthquake to ever hit North America and coupled with 
tsunamis, it claimed 131 lives and caused significant, 
widespread damage. We had an opportunity to look at some of 
those pictures from that massive earthquake and tsunami.
    Of course, Alaska is not the only state to face these 
hazards. Last month, mudslides in southern California claimed 
the lives of 21 people and caused millions of dollars of 
damage. I know that Senator Cantwell will speak on the 
landslide that occurred in Oso a few years ago. We have had 
discussions about that horrible tragedy and the fact that it 
took 43 lives. But also an imminent disaster, if you will, one 
that is about to give way at Rattlesnake Ridge in Washington 
State that everyone is watching very, very closely.
    The good news is that our federal, state, and local 
partners are developing the tools and maps needed to better 
understand these natural hazards, in an effort to give more 
advanced warning to communities in danger. Those include 
seismic monitors for earthquakes, elevation mapping to mark out 
slopes vulnerable to landslides, cameras on volcanoes, sensors 
along rivers and coasts, and tidal monitors to help detect 
tsunamis.
    Some operations are, of course, more advanced than others. 
The U.S. Geological Survey's (USGS's) National Earthquake 
Information Center is staffed 24 hours a day, 7 days a week. It 
maintains hundreds of seismic monitors across the country.
    But out at the Bogoslof Volcano on the Aleutian Chain, 
which erupted for about eight months last year--so eight months 
it just kept going and spewing--we watched the activity, but we 
effectively had to rely on satellite data to alert pilots of 
the ash clouds because there is no monitor on that particular 
volcano.
    I am one of several members who have introduced legislation 
to address those gaps. We have two bills, the National Volcano 
Early Warning and Monitoring System Act and the National 
Landslide Preparedness Act. These are already included in our 
Energy and Natural Resources Act, which is awaiting 
consideration on the Senate floor.
    This morning, we will learn about the need for better 
monitoring and mapping to provide as much of a warning of 
natural hazards events as possible and to reduce impacts to 
life and property.
    Now, before I turn to Senator Cantwell for her opening 
remarks, I would like to acknowledge the President's intent to 
nominate James Reilly, a geologist and an astronaut, to be the 
Director of the USGS. I look forward to receiving his paperwork 
and considering him before the Committee.
    Finally, I would like to acknowledge Chairman Thune of the 
Commerce Committee. He worked with us to ensure that tsunamis 
could be included as part of our hearing. NOAA, which falls 
under Commerce's jurisdiction, is the lead federal agency on 
tsunamis, but we are glad to be discussing that issue this 
morning, particularly given the issue in Alaska last week.
    With that, I will turn to you, Senator Cantwell, for your 
comments.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this hearing of great importance to both of our states 
and to the nation. Earthquakes, volcanoes, landslides, 
avalanches, and tsunamis are a potential impact to millions of 
Americans each year.
    I would also like to thank one of our witnesses for being 
here, Mr. Dave Norman, from the State of Washington. He is our 
state geologist, and I look forward to hearing your testimony.
    Washington, like Alaska, has its share of natural hazards. 
Washington has five high- to very-high-threat volcanoes, that 
includes Mount Rainier which is considered the nation's most 
dangerous. USGS estimates that within a person's lifetime there 
is a one in seven chance that Mount Rainier will erupt.
    Volcano monitoring at these sites is almost non-existent. 
That is why at Glacier Peak and Mount Baker, which only has one 
seismometer, we need to have at least five, to ensure the 
proper early warning systems in case of eruption.
    The Cascadia Subduction Zone also poses a serious 
earthquake and tsunami risk to Washington State. I know many 
people around the country were shocked to read the New Yorker 
article on ``The Big One'' and see the level of devastation 
that it might cause. I guarantee you, the State of Washington 
is working very hard on a preparation plan, but we need help 
and support at all levels.
    I have worked very closely with the Chairwoman here, and my 
colleagues also on Commerce, to secure the best technology to 
help identify the risk associated with the Cascadia fault. We 
still have a long way to go with our communities to prepare for 
these very unique hazards.
    In addition, the Chair mentioned Rattlesnake Ridge, a 
landslide outside Yakima, Washington, that is moving 2.5 inches 
every day. It is not a question of whether there will be a 
major landslide there, but a question of when.
    The Chair also mentioned Oso, the devastating mudslide that 
happened in Washington State, killing many Washingtonians. Just 
today, the National Weather Service announced that recent rains 
have increased the chance of landslides in Western Washington.
    So these changes in weather events, where we have more 
intense rain, where you can have double of what people have 
seen in the past on any given day, means that we have to think 
differently about our warning system as it relates to 
landslides.
    Natural hazards are unpreventable, but the more we know 
about the science and the causes of hazards, the better we can 
prepare for these events and build more resilient and safer 
communities. Our states play a leadership role in this, but the 
USGS is absolutely a critical partner in monitoring and 
responding to these hazards.
    Last week, with Alaska's experience of an 8.0 magnitude 
earthquake followed by a tsunami warning/watch that extended 
all across the Pacific, NOAA and USGS transmitted alerts after 
the earthquake, but there is more that we can do to ensure 
timely and effective warning communication so that it reaches 
all people within the tsunami zones, especially those in rural 
areas.
    I am proud of the work we were able to do on the Tsunami 
Warning Education and Research Act, S. 533, last Congress in 
addition to ensuring investments in DART buoy systems and 
network science. It also increases preparedness funding to 
states and calls for more coordination between USGS, NOAA and 
their tsunami programs.
    This DART system is what gives us the information after an 
earthquake about what the wave size might actually be and that 
way we can translate that information into our citizens on what 
they need to do to prepare. Obviously, we have had a couple 
incidents that show us that we need to continue to build out on 
that.
    Looking to the array of natural disasters facing Washington 
and Alaska and the U.S., I am working to secure passage of the 
National Landslide Preparedness Act. I am also pleased to be a 
co-sponsor of Senator Murkowski's National Volcano and Early 
Warning Monitoring System and a co-sponsor of Senator 
Feinstein's National Earthquake Hazard Reduction Program 
Reauthorization Act.
    So, as the Chair said, there are many issues. We all look 
forward to hearing your testimony but also just helping our 
communities better prepare for these natural disasters in the 
future.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    We will now go to our witnesses. Again, if we do have 
additional members come that establishes a quorum, I hope you 
will not take offense that you might be interrupted, but I 
appreciate your flexibility here.
    The Committee is joined this morning by a very 
distinguished panel.
    We have Dr. David Applegate, who is the Associate Director 
for Natural Hazards at the U.S. Geological Survey. We welcome 
you to the Committee.
    Mr. Glenn Casamassa has been before us in prior hearings. 
He is the Associate Deputy Chief for the National Forest System 
at the U.S. Forest Service with the Department of Agriculture.
    I mentioned in my opening statement that we are joined 
today by the Mayor of Kodiak, the City of Kodiak, the Honorable 
Pat Branson. Thank you for traveling the distance that you have 
and for joining us to share the comments from a community that 
was just recently impacted.
    Mr. Dave Norman was introduced by Senator Cantwell. He is 
the State Geologist at the Department of Natural Resources in 
the Washington Geological Survey. Welcome to the Committee.
    Dr. Mike West is the State Seismologist at the Alaska 
Earthquake Center. We anticipate that you do not have very good 
sleep many nights.
    [Laughter.]
    But we appreciate the good job that you do.
    And Ms. Karen Berry, who is the State Geologist and 
Director at the Colorado Geological Survey at the Colorado 
School of Mines. She is also the President-Elect for the 
Association of American State Geologists. We appreciate your 
leadership in these areas.
    With that, Mr. Applegate, if you would like to begin. We 
ask you to keep your comments to about five minutes. Your full 
statements will be incorporated as part of the record.
    Welcome.

   STATEMENT OF DR. DAVID APPLEGATE, ASSOCIATE DIRECTOR FOR 
            NATURAL HAZARDS, U.S. GEOLOGICAL SURVEY

    Dr. Applegate. Great, thank you.
    Thank you, Chairman Murkowski, Ranking Member Cantwell and 
the members of the Committee for holding this hearing.
    My name is Dave Applegate, and I'm the Associate Director 
for Natural Hazards at the U.S. Geological Survey.
    Every day, people and communities across the nation face 
risks associated with natural hazards that threaten lives, 
livelihoods and the infrastructure that underpins our economy 
and our way of life.
    The strength of the USGS is in the range of scientific 
capabilities and partnerships that we bring to bear to deliver 
information to first responders, decision-makers, and the 
public across a wide range of natural hazards.
    USGS and our partner-run monitoring networks enable rapid 
situational awareness tools for effective response, while our 
hazard and risk assessments and scenarios help communities 
understand and mitigate their exposure before the disaster 
happens. These products are underpinned by targeted research to 
improve our understanding and to maintain world-class 
expertise.
    A variety of USGS capabilities that serve multiple missions 
also contribute. For example, improved elevation data through 
3DEP and geologic mapping enable new discoveries of faults, 
landslides, and deposits from volcanic eruptions.
    For our science to make a difference to society, it is 
essential that we engage directly with users to shape how we 
collect and deliver information so that people, businesses, and 
all levels of government are more effectively able to assess 
their risks and build more resilient communities. And we can't 
do that without our state and university partners, several of 
whom are here today.
    For earthquakes, we're testing the bounds of how fast we 
can deliver actionable information. We're working with states, 
university partners and private foundations to develop an 
earthquake early warning system, called ShakeAlert, for the 
West Coast and we're working with private firms and public 
agencies to integrate those warnings into automated systems and 
emergency announcements. Through new funding directed by 
Congress in recent years, the system is now about half 
completed and we expect to begin limited public alerting by the 
end of the year. When completed, this technology is expandable 
to other regional networks of the USGS Advanced National 
Seismic System, such as Alaska, Nevada, and Utah.
    Last week's Alaska earthquake was a reminder of the threat 
posed by subduction zones, those areas where two tectonic 
plates collide and one is driven beneath the other generating 
the largest earthquakes and many of the world's volcanoes.
    The Pacific Ocean's Ring of Fire includes zones off Alaska 
and the Pacific Northwest's Cascadia. Also, Puerto Rico and the 
U.S. Virgin Islands are atop a subduction zone in the 
Caribbean.
    This past June, the USGS released a science plan that lays 
out an achievable vision for addressing the hazards associated 
with subduction zones. The plan defines science priorities and 
identifies potential partnerships to advance observations and 
modeling, quantify hazards and risks and provide forecasts.
    From Northern California to the Aleutians, volcanic hazards 
pose immediate threats to nearby communities and also produce 
ash clouds that disrupt international air traffic. Fast-moving 
debris flows of volcanic material, known as lahars, threaten 
communities downslope.
    In Washington State, the USGS and Pierce County are working 
together to establish a lahar detection and warning system for 
all major drainages of Mt. Rainier. When completed, it will 
serve as a model for protecting populations at risk of lahars 
from other volcanoes. The USGS is currently finalizing a 
Congressionally-mandated report that specifies the 
implementation plan for a National Volcano Early Warning System 
that will ensure that all volcanoes in the U.S. are monitored 
at levels commensurate with their threat.
    In Alaska, USGS science and hazard monitoring operations 
focus on threats from a wide range of hazards. Congress 
directed the USGS to provide an implementation plan including 
cost estimates for the adoption of future seismic stations--the 
relevant ones being those of the National Science Foundation's 
transportable array currently deployed across Alaska for a 
period of two years. The USGS plan provides a detailed strategy 
and costs, prioritizing the retention of the TA equipment, 
upgrades at permanent stations of the Alaska Seismic Network 
and Alaska Volcano Observatory Network, plus other high-value 
stations for monitoring the most threatening volcanoes in the 
state.
    USGS is also prioritizing the update of the Alaska Seismic 
Hazard Model, which is the basis for earthquake-safe 
construction statewide, and its results will be applicable to 
other subduction zone environments including Cascadia and 
Puerto Rico.
    With that, I thank you for the opportunity to share some of 
current USGS activities that are helping make communities and 
the nation safer and more resilient. Happy to answer questions.
    [The prepared statement of Dr. Applegate follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Dr. Applegate.
    Mr. Casamassa, welcome.

STATEMENT OF GLENN CASAMASSA, ASSOCIATE DEPUTY CHIEF, NATIONAL 
    FOREST SYSTEM, U.S. FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Casamassa. Madam Chairman, Ranking Member Cantwell, 
members of the Committee, thank you for the opportunity to 
present the views of the U.S. Department of Agriculture 
regarding natural hazards on National Forest System lands, 
specifically around our efforts to monitor, mitigate, and 
forecast avalanches along with our use of mapping and 
monitoring systems.
    I'm not going to spend much time on issues that relate to 
areas that USGS has covered, but I will say that the Forest 
Service actively manages public and employee vulnerabilities 
associated with these natural hazards.
    The Forest Service relies on geospatial technology and 
geographic information systems, remote sensing and real-time 
sensors such as stream gauges, weather stations, lightning 
detection, infrared heat detection systems, aerial images and, 
of course, our experienced cadre of field technicians, 
professionals and partners.
    Forest Service and U.S. Geological Survey routinely share 
base data to reduce duplication and generate values under the 
collect once, use many, principles. Our Geospatial Technology 
and Application Center in Salt Lake City is also collaborating 
with the U.S. Geological Survey and others in the Interior 
Department to build a more efficient and effective hazard 
vulnerability assessment tool.
    With respect to the Forest Service Avalanche Safety 
Program, we are deeply committed to this program which was 
founded approximately 80 years ago. Unfortunately, avalanches 
kill more people on National Forests than any other natural 
hazard. Each winter, on the average of 25 to 30 people are 
killed by avalanches in the United States. This is why the 
Forest Service has traditionally been and continues to be the 
lead agency for avalanche safety.
    Work and sport in avalanche country revolves around a tight 
knit community of which the Forest Service is proud to support 
and be a part of. Each avalanche death is felt profoundly. This 
year's victims so far include a well-known and respected skier 
in Alaska, prominent young skiers in Montana and Colorado, and 
experienced snowmobile and motorized snow bikers in Wyoming, 
Idaho, and Montana.
    The Forest Service avalanche program consists of two 
primary parts. First, we operate a Military Artillery for 
Avalanche Control Program in close coordination with several of 
the ski areas on National Forest System lands. Second, we 
maintain a network of 13 backcountry avalanche forecasting 
operations. I'll discuss each a little bit separately.
    The Military Artillery for Avalanche Control Program 
protects the skiing public by utilizing U.S. Army surplus 
howitzers to trigger avalanches. Nationally, this program 
involves close coordination between the Department of the Army, 
the Forest Service, several departments of transportation 
including Alaska, Washington and Colorado, and Forest Service 
permitted ski areas in a wide variety of Western states.
    A 2017 Interagency Agreement between the Department of the 
Army and the Forest Service guides the program's operation. The 
program is highly valued by the participating ski areas. As 
such, these ski areas cover its entire operating cost which is 
approximately $750,000 per year.
    The second Forest Service avalanche safety program includes 
avalanche information and education to the public. This is one 
of the most visible public safety programs run by our agency 
and is an excellent example of a robust and successful public-
private partnership. The program is comprised of 13 Forest 
Service Avalanche Centers as well as our partners at the 
Colorado Avalanche Information Center, the American Avalanche 
Association, and several non-profit avalanche centers. Each 
operation is managed locally and partially supported 
financially by affiliated, non-profit friends' groups.
    In order to better communicate all the avalanche 
information to the public, the Forest Service has partnered 
with the American Avalanche Association to develop and maintain 
avalanche.org. Avalanche.org connects the public to backcountry 
avalanche information and education in the United States and 
represents a series of collaboration and partnerships that span 
more than 25 independent operations in 12 states. This 
initiative also provides a home for the development of 
technologies which improve our ability to forecast and 
communicate avalanche hazards.
    The Forest Service recently published a peer-reviewed 
article in a journal, Wilderness and Environmental Medicine, 
that rigorously analyzed avalanche fatality over the past 20 
years. This statistical analysis demonstrated that while the 
number of backcountry users has increased by at least a factor 
of eight, the number of avalanche fatalities during that time 
has remained unchanged with about 25 to 30 fatalities per year.
    While we are not satisfied until we can further reduce the 
avalanche fatality rate, this represents success both for our 
avalanche program and also for the safety gear manufacturers 
and educators. The USDA Forest Service is committed to public 
safety and partnering to ensure resources and evolving 
technologies are available and used to enhance planning, 
forecasting and protecting lives.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Casamassa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you, Mr. Casamassa.
    Mayor Branson, welcome to the Committee.

             STATEMENT OF HON. PAT BRANSON, MAYOR, 
                     CITY OF KODIAK, ALASKA

    Ms. Branson. Thank you, Chairman Murkowski, Ranking Member 
Cantwell. It's an honor to be invited here today to testify on 
these important issues.
    With your permission, I would like to submit written 
testimony for the record and provide a brief summary in my 
remarks.
    Kodiak people have a long history with preparedness and 
resiliency in the face of natural disasters and geographic 
challenges. In fact, the City of Kodiak was founded in the wake 
of a natural disaster. In 1788, Russian colonists were forced 
to abandon their original settlement on Southern Kodiak Island 
and move their capital to the location of our present-day city 
when a massive earthquake and series of tsunamis destroyed 
their homes and infrastructure in Three Saints Bay.
    We have learned through many brushes with disasters that 
readiness is a community responsibility. We all have crucial 
roles to play. We, on the Kodiak archipelago, including our six 
remote villages, believe that if you are prepared an emergency 
event need not become a crisis.
    At 12:32 a.m., one week ago, Kodiak received a wake-up 
call. We were jolted awake by a magnitude 7.9 earthquake only 
175 miles away and within moments our community sprang into 
action. Our tsunami alert sirens were activated, the Incident 
Management Team was assembled and rapidly opened the 
Interagency Emergency Operation Center and our first responders 
went to work protecting community assets and shepherding our 
citizens to safety.
    This event was truly an eye-opening incident for us 
because, though we were hit by a series of minor tsunamis 
generated by this quake, there was no loss of life. And 
importantly, it gave an opportunity to evaluate our response 
and realize that we have critical infrastructure and emergency 
preparedness needs we must address before the next incident 
occurs.
    One essential need and safety priority is our fire station. 
Along with protecting the City of Kodiak, the Kodiak Fire 
Department provides all emergency medical services and 
transports on the Kodiak road system and mutual aid outside the 
city, including to our local United States Coast Guard base, 
the largest in the country. However, the fire station is a 60-
years-plus-old structure and the 1964 tsunami came within 10 
feet of inundating this facility. Fortunately, this time, we 
were not hit by a sizable tsunami, but once the all clear was 
given and the firefighters returned to the station, we 
discovered that it had sustained significant structural damage 
from the quake itself with the full extent of this damage yet 
to be realized until the building finishes settling after most 
recent tremors. What we do know, however, is that a new fire 
hall is needed immediately.
    Another area of concern is our emergency communications 
abilities. Patrol officers of the Kodiak Police Department were 
forced to repeatedly traverse inundation zones to use the PA 
systems in their squad cars advising people to get out and get 
to higher ground because Kodiak does not have an integrated 
tsunami PA system.
    Due to funding shortfalls at the state level, our Alaska 
State Trooper post has been greatly reduced, and we needed to 
deploy our city police force outside their jurisdiction to 
assist in evacuations of citizens living in this area which 
further reduced the number of officers available within the 
city. While Kodiak has been diligent in utilizing its limited 
resources and personnel to maintain our emergency response 
capability, we have some glaring shortfalls in communications 
equipment and public safety infrastructure. The cost of 
eliminating these shortfalls is now in excess of $15 million.
    The Trump Administration has recently circulated an outline 
for a future infrastructure initiative. Under this proposal, 25 
percent of the total package would be dedicated to rural 
infrastructure programs and it contemplates a broad range of 
eligible activities.
    We believe that any proposal crafted by Congress should 
also include emergency response equipment and public safety 
buildings. In earthquake and tsunami zones, such as Kodiak, 
being prepared is a necessary and vital component of 
maintaining the safety of our residents and local economies. 
From our own personal experience, both historically and just 
from one week ago, we cannot emphasize enough the critical 
importance of adding emergency preparedness infrastructure to 
the scope of any infrastructure package.
    Thank you for this opportunity to speak about our 
community.
    [The prepared statement of Ms. Branson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
   
    The Chairman. Thank you, Mayor, we appreciate it so much.
    Mr. Norman, welcome.

   STATEMENT OF DAVID K. NORMAN, STATE GEOLOGIST, WASHINGTON 
       GEOLOGICAL SURVEY, DEPARTMENT OF NATURAL RESOURCES

    Mr. Norman. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, thank you for inviting me to testify today. I am 
Dave Norman, the Washington State Geologist representing the 
Washington Geological Survey, a division of the Department of 
Natural Resources. I'm also the Chair of the Geological Hazards 
Committee for the Association of American State Geologists. I'm 
excited for this opportunity to share some of my views and tell 
you about some of the geological hazards in Washington State. 
On a personal note, I'm also keenly interested in Alaska 
geological hazards, as I have a daughter, a son-in-law and a 
grandson living in Kenai and they certainly were awakened the 
other night.
    Washington is one of the most at-risk states for a variety 
of geological hazards including earthquakes, tsunamis, 
volcanoes and landslides. Recent events in Washington and other 
parts of the world have highlighted the important role and need 
for better and more compelling information that can help 
prevent or minimize the loss of life, reduction of property 
value and serious disruptions to Washington's and the nation's 
economy.
    Washington is the second most at-risk state for 
earthquakes, and the active subduction zone off the Washington 
coast can cause a magnitude 9 earthquake and deliver a tsunami 
to coastal areas in fewer than 30 minutes. In addition to the 
Cascadia subduction zone, Washington has many more active 
faults capable of widespread damage, including the Seattle 
Fault zone.
    We frequently collaborate with the USGS and FEMA to learn 
more about earthquake hazards, and the data we generate informs 
building code updates that result in reduced damage and lives 
saved during the next earthquake.
    We encourage reauthorization of The National Earthquake 
Hazard Reduction Program as it is important to Washington and 
the nation to help provide funding, maintain expertise, reduce 
damage and save lives.
    Tsunamis pose a great hazard because they arrive quickly 
and because they can be large, with tsunami waves being as high 
as 70 feet in some areas of Washington. We need look no further 
for an example of the damage a large subduction zone earthquake 
and tsunami can do than the 2011 Tohoku tsunami in Japan that 
caused over $300 billion in damage and had over 15,000 
fatalities.
    Reauthorization of the Tsunami Warning Education and 
Research Act is a critical part of continuing to provide safety 
for Washington's and the nation's citizens. We thank you for 
reauthorization of this important Act.
    With regards to volcano hazards, Washington is home to 4 of 
the 18 ``Very High Threat'' volcanoes in the United States. 
This number includes Mount Rainier, which is considered the 
most dangerous volcano due to the size of the at-risk 
population in the Puget Sound, and Mount St. Helens, as well as 
Mount Baker and Glacier Peak. All could erupt again in our 
lifetimes, and the consequences would likely be high.
    With the exception of Mount St. Helens, these Very High 
Threat volcanoes are moderately to significantly under-
monitored relative to their risk. Passage of the National 
Volcano Early Warning and Monitoring System Act is important to 
Washington and the nation as it will help fund additional 
monitoring and collaboration with the USGS and communities 
along these populated corridors on the flanks of these 
volcanoes.
    With regards to landslides, Washington is one of the most 
landslide-prone states and has hundreds of thousands of known 
and unknown landslides. Some of these landslides have been 
record setting in terms of size, damage and lives lost, such as 
the Oso landslide in 2014 that caused 43 fatalities. More 
recently, the ongoing Rattlesnake Hills landslide has caused 
evacuation of 60 people from their homes and threatens I-82 
with closure. The landslide is moving at about three inches per 
day currently, but it is no longer accelerating. It is 
currently being monitored using a variety of methods.
    We encourage passage of the Landslide Preparedness Act as 
it is important because landslides are among the most 
frequently-occurring natural hazards in the nation and this 
will provide funding for improved landslide inventories, hazard 
maps, research and monitoring equipment that allows us to learn 
more about these landslides and save lives and money. Having 
USGS as a partner and available for collaboration is critical 
during these events.
    Thank you.
    [The prepared statement of Mr. Norman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    The Chairman. Thank you, Mr. Norman.
    Dr. West, welcome.

   STATEMENT OF DR. MICHAEL WEST, ALASKA STATE SEISMOLOGIST, 
  ALASKA EARTHQUAKE CENTER, AND RESEARCH ASSOCIATE PROFESSOR, 
     GEOPHYSICAL INSTITUTE, UNIVERSITY OF ALASKA FAIRBANKS

    Dr. West. Thank you, Chair Murkowski, Ranking Member 
Cantwell, members of the Committee. I'm Michael West, State 
Seismologist with the Alaska Earthquake Center and current 
Chair of the Alaska Seismic Hazard Safety Commission.
    I'm privileged to work closely with the U.S. Geological 
Survey, NOAA, and others under collaborations made possible by 
the legislation that this Committee leads.
    As you've heard from others, last Monday night my state was 
rocked by a massive earthquake. The offshore location and lack 
of major tsunamis spared us catastrophic impacts, but it is a 
sobering example of why the nation's earthquake and hazard 
programs really matter. These programs save lives. They protect 
infrastructure. They protect our economy.
    My written testimony lays out examples that address 
earthquakes, tsunamis, landslides, and volcanoes. Here this 
morning I'd like to focus on the monitoring activities that 
underpin all of these.
    I want to first thank many of you for your efforts to 
reauthorize the National Earthquake Hazards Reduction Program 
(NEHRP). It was unprecedented when introduced in 1977, and it 
remains a role model program four decades later. Because of 
NEHRP, as we call it, we have open, public seismic monitoring 
networks that during last week's earthquake allowed any agency 
or even individual with an internet connection to see and 
evaluate the situation in real time.
    Under the auspices of NEHRP, in 2000, Congress authorized 
the Advanced National Seismic System, a visionary program 
founded explicitly on collaboration between the states and the 
Federal Government and the USGS to establish robust monitoring 
systems across the U.S. The program was charged with operating 
at high performance standards to create ``information products 
and services to meet the nation's needs.''
    Eighteen years later, however, we have yet to achieve many 
of those basic performance standards and nowhere is that more 
true than in Alaska. When last week's earthquake hit, much of 
Alaska's seismic monitoring network was temporarily offline as 
a result of an unrelated, modest, regional power failure. Much 
of the Alaska data and products served to the Tsunami Warning 
Centers, the National Earthquake Information Center and to 
private stakeholders, including the Alyeska Pipeline Service 
Corporation, were simply not available for an hour or more.
    We're fortunate to have some redundant capabilities between 
our respective organizations, but this was an abject failure 
and it was due to well-known vulnerabilities and outdated 
systems.
    The programs that you're considering would strengthen the 
nation's monitoring infrastructure. It's the FCC-compliant 
radio systems that would be replaced under the National Volcano 
Early Warning System. It's the backup power and communications 
that might finally be afforded under the Advanced National 
Seismic System. It's the geodetic instrumentation needed for 
more accurate tsunami assessments and earthquake early warning.
    Your efforts on NEHRP and other bills have the potential to 
reinvigorate these hazard programs and retool them for a new 
era, but only if you take the time to ensure that the new 
language and, to be frank, the funding levels, address each 
state's specific needs. So stay involved.
    So how do we move forward in the current climate? One way 
is through collaboration. Many agencies operate monitoring 
equipment. The states and USGS, of course, but also NOAA, the 
National Science Foundation (NSF), even the Air Force. We need 
collaborative projects.
    One such example, again just a sample drawn from my state, 
is the opportunity to adopt the National Science Foundation's 
USArray facility. NSF's $40-million investment in state-of-the-
art seismic and meteorological stations is slated to be 
decommissioned in 2019. Surely we can come together, between 
agencies, state and federal, to sustain portions of this 
facility that served the needs of earthquake monitoring, 
tsunami warning, volcano hazards, weather forecasting, forest 
fire staging, aviation, and national defense. It seems like a 
no-brainer.
    To wrap up, I encourage you to always show restraint when 
authorizing new legislation, but the combined cost of these 
collaborative programs, something like $1.00 per American per 
year, is absolutely trivial compared to the impact of one major 
disaster. And without strong Congressional language, these 
collaborations stop.
    Without Congressional authority, federal agencies are 
gripped by uncertainty, uncertainty that ripples out of 
Washington into the states to people like me and ultimately it 
impacts our municipal stakeholders who are just trying to build 
safe, resilient communities. These are not partisan or even 
controversial topics. These are goals that we can all support.
    I welcome whatever questions you have today or in the 
future.
    Thank you.
    [The prepared statement of Dr. West follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Dr. West, we appreciate that.
    Ms. Berry, welcome to the Committee.

    STATEMENT OF KAREN BERRY, STATE GEOLOGIST AND DIRECTOR, 
COLORADO GEOLOGICAL SURVEY AT THE COLORADO SCHOOL OF MINES, AND 
   PRESIDENT-ELECT, ASSOCIATION OF AMERICAN STATE GEOLOGISTS

    Ms. Berry. Chairman Murkowski, Ranking Member Cantwell, I 
want to thank you for the opportunity to discuss mapping, 
monitoring, and mitigating geologic hazards.
    Colorado is a diverse state with the nation's highest 
elevation, wide river valleys and rugged canyons. It has 
hundreds of mountains that reach elevations of 11,000 to 14,000 
feet. Geologic hazards, such as landslides, rockfall, debris 
flows, sinkholes, expansive soil and collapsible soil are 
present in every part of the state from the plains to the 
highest peaks. My written testimony contains some examples of 
this.
    In the next three decades, Colorado's population is 
expected to increase by 40 percent. As the population increases 
in hazard-prone areas, community resilience, or the ability of 
a community to withstand the effects of a disaster, is greatly 
dependent on knowing vulnerabilities to hazards and planning 
for those hazards.
    Many communities in Colorado and throughout the nation, do 
not have the basic tools needed to build community resilience, 
a map of potential hazards and land-use plans that address 
those risks. In Colorado, only 38 percent of the state has been 
mapped at the scale needed to build community resilience.
    We have seen the lack of basic tools impact military 
families. When military personnel are transferred, they get ten 
days to find a good house in a good school district, close to a 
base, at a price they can afford, make an offer and evaluate 
the condition of the house. That's barely enough time to find a 
good real estate agent, let alone investigate potential 
geologic hazards. Military and veteran families have 
unknowingly purchased homes that were later destroyed by 
wildfire, debris flows or landslides.
    When a geologic-related disaster destroys or damages a 
community's business hub or closes a major transportation 
route, there are losses due to lost economic opportunities.
    Tourism is the largest industry in Colorado. It is 
estimated that businesses, in the mountain resort area along 
our Interstate 70 corridor, conduct $6.4 million in tourism-
related transactions each day. It doesn't take long for a road 
closure due to an avalanche or a landslide to impact 
communities and businesses. Many cities and towns are almost 
totally dependent on revenue from tourism to fund the critical 
services they provide to their citizens.
    What is Colorado's vulnerability to geologic hazards? Since 
most of the state is not mapped, we really don't know. However, 
of the areas that are mapped, it is estimated that $2.9 billion 
in state-owned assets are vulnerable to landslides, rockfall, 
debris flow, and potentially unstable soil.
    Colorado is now analyzing vulnerability of private assets 
to known geologic hazards. Residential and commercial 
properties in Colorado are valued at $76 billion. Though our 
assessment isn't complete, we know many areas with significant 
private and public investments have significant geologic 
hazards.
    The seismic hazard in Colorado is rated low to moderate. 
However, we really don't know our risks. We have limited 
knowledge of potentially active faults, and we have a sparse 
seismic network to monitor earthquakes. The largest known 
earthquake in Colorado occurred in 1882 and had an estimated 
magnitude of 6.6. If that event were to occur today, modeling 
suggests the economic losses would exceed $22 billion, up to 
1,000 lives would be lost and 14,000 injured.
    How do we reduce risks and protect public safety? An 
insurance industry study looked at the relationship between 
state requirements for local government comprehensive plans and 
claims paid by insurance companies for losses between 1994 and 
2000. During the period studied, insurance companies paid out 
more than $26 billion for disaster-related claims to 
residential property. The study indicates that insured losses 
would have been reduced by $257 million, or one percent, excuse 
me, if all states had required consideration of natural hazards 
in local land use plans. Again, to address geologic hazards in 
a plan requires knowing where the hazards are located and what 
are the risks. Basic information many communities lack.
    We need the Committee's assistance to fill those gaps. 
Reauthorization for the National Cooperative Geologic Mapping 
Program will allow state surveys and USGS to map the nation at 
the scale needed for land-use planning. Reauthorization for The 
National Earthquake Reduction Program will provide critical 
funding for research, monitoring, and mitigation, in order to 
reduce fatalities, injuries and economic losses caused by 
earthquakes. It also has an important land-use planning 
component. Without the LiDAR provided by the 3DEP program, 
state geological surveys would not be able to effectively map 
and monitor all types of geologic hazards. This program is an 
essential building block to increasing community resilience.
    Passage of and adequate funding for the National Landslide 
Preparedness Act; the proposed programs of research, mapping, 
and monitoring; combined with public education and land-use 
planning are important steps to enhance community resilience. 
The planning tools that are outlined in the Act can be used for 
other types of geologic hazards.
    In summary, the Association of American State Geologists 
encourages reauthorization of NCGMP and NEHRP and passage of 
3DEP and the National Landslide Preparedness Act into law.
    I appreciate the opportunity to discuss these important 
programs with the Committee.
    [The prepared statement of Ms. Berry follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you, Ms. Berry.
    I appreciate the input from each of you here this morning. 
Good information and lots to talk about.
    We did have a good number of members that were here and, of 
course, my hope was that they were all captivated----
    [Laughter.]
    ----about these natural disasters that our states face, but 
it is clear that Alaska, Washington State, probably the Pacific 
Northwest, are perhaps a little more vulnerable. So don't take 
it as a lack of interest from the others.
    Some years ago, when I had just introduced the Volcano 
Monitoring System bill, Alaska was experiencing a string of 
eruptions, some that had shut down air traffic over Anchorage 
International Airport, really locked the state down. Most of us 
can remember days off work because you were not cleared to use 
your computers because the air filtration system was going to 
gum everything up and it was a real mess. I was actually mocked 
for introducing that legislation. I was ridiculed that who 
needs to watch a volcano? Who needs to monitor a volcano? This 
was a big, fat Alaskan earmark, they said. And then, the 
eruption in Iceland that shut down all of the European air 
traffic occurred and all of a sudden there was a wow, how do we 
keep on top of all this? How about that cool Volcano Monitoring 
System?
    I look back on that and think that we have come a long way 
when it comes to how we are monitoring these natural hazards, 
whether they be volcanoes or earthquakes and early warning 
systems. The issue of landslides which is more and more 
troubling, certainly tsunamis. So we have come a long way, but 
I agree there is so much more that we need to do.
    Dr. West, you speak to the issue of collaboration here 
because we have so many, we have a host of different agencies 
that are involved. We see that just represented here on the 
panel from USGS to Forest Service, to our states, to our 
universities, to our local communities. Making sure that we are 
doing right by all of this is so important.
    Let me start with you, Dr. Applegate, and this relates to 
the seismic monitors. I was pleased when I first learned the 
effort that the National Science Foundation had made in placing 
these in Alaska, and then I was deeply troubled when I learned 
that they were going to pull them all out at considerable 
expense to NSF. So you go to the effort, the financial effort, 
to install them, to gain all this important data, and then we 
are just going to pick up and leave.
    Dr. West, you have mentioned this as well. Now you have 
indicated that there is a strategy for retention of these 
stations. I have been pushing on this now for a couple years, 
but can you give me assurance that these monitors are not going 
to have to be removed at the end of the year, that the 
negotiations or the discussions with USGS and NSF and NOAA for 
the adoption of these, that we are in a good place now?
    Dr. Applegate. Chairman, this is a good government 
opportunity, as you point out. This is a significant investment 
that's been made.
    We appreciate the opportunity to have, you know, worked 
with the state, worked with private sector and others to look 
at this opportunity, understand it, prioritize it.
    So, I'll say, we've got, discussions are underway with NSF. 
The report that will be arriving as this prioritization we 
will, you know, I would say we're making a good faith effort to 
try to be able to capture as many of these as we can and----
    The Chairman. Is that based--when you say capture as many 
as we can, is that going to be determined by budget or----
    Dr. Applegate. Right.
    The Chairman. ----what exactly do you mean by that?
    Dr. Applegate. So, obviously, a key determinant of it is 
funding sources. As you indicated, it's not just about the 
USGS, it's about other agencies as well but, you know, I think 
we've laid the groundwork to know which are the ones that as we 
do have resources available, through whatever means, that we're 
capturing the ones that are most important for our earthquake 
monitoring, for tsunami monitoring, for volcano monitoring and, 
you know, for the state.
    The Chairman. Dr. West, what happens if we do not preserve 
these monitoring stations that we have? What happens to us, as 
a state? We are one-fifth of the size of the country. We have 
got a lot of area to cover and we know that we are in one of 
the most seismically active areas in the country. What happens 
if we do not make the smart funding decision here and are not 
able to protect what we put in place with this monitoring 
infrastructure?
    Dr. West. Well, we revert to where we were prior to this 
once-in-a-lifetime, sort of, opportunity which is more than 
half the state doesn't really have modern seismic 
instrumentation of any sort.
    We have, I mentioned in my testimony, consistently fallen 
short of basic performance standards that we try to achieve. 
Nationally, Alaska has areas where that has simply never been 
achieved. So we go back to there. I----
    The Chairman. And when you go back to there you put 
people's lives at risk.
    Dr. West. Well, that's right. I remain optimistic though. I 
actually think we are moving in a good direction. I'm pleased 
with the diligence that the USGS has brought to the federal 
earthquake piece of this effort. I've seen tremendous 
enthusiasm from NOAA for the tsunami and the meteorological 
components of this.
    The State of Alaska, frankly, has struggled to be a strong 
partner in this, as it could be, because of its fiscal 
situation. But that said, I firmly believe the state wants and 
needs to be engaged in this. We've had some troubles, some 
challenges, in finding a really strong, collaborative model for 
legitimate reasons, actually, but rules about, you know, fed-
only discussions and sensitivities and what not have made it 
difficult for everyone to sit in one room and, kind of, hash 
this out. I think we still have work to do to bring NOAA into 
the fold and make sure their needs are fully addressed.
    And again, the state, I think, has potential that we've not 
yet been--we've not yet achieved. But I do think there's a path 
here.
    The Chairman. Let me ask, and I guess this is back to you 
again, Dr. Applegate, and this relates to our volcano monitors.
    They are currently operating on an analog system, and in 
2020 the National Telecommunications and Information 
Administration will eliminate the frequency that is used to 
transmit that data. What progress are we making with regards to 
conversion of those to digital monitors? Can you give me a 
progress report here on how many more monitors need to be 
converted?
    Dr. Applegate. Absolutely. About 117 stations remain to be 
transferred from the older analog technology to the digital 
technology. And I'll say that there is advantage here, not only 
the issue of the spectrum availability and that driver for 
this, but this is also an upgrade in capability that will allow 
us to bring in additional data streams. So, this is, I think, 
part of that, sort of, long-term National Volcano Early Warning 
System (NVEWS) goal is to have this modernization.
    The Chairman. Are you satisfied with the progress then? Are 
we going to make that 2020 date?
    Dr. Applegate. The progress, at this point, we have been 
able to accelerate with the additional support, we've been able 
to go from, opportunistically, maybe 6 to 7 a year, up to on 
the order of 12 to 15, but there is still----
    The Chairman. That is not going to get you there.
    Dr. Applegate. Yeah, it's not going to get us there. So we 
certainly are looking at the waiver issue in terms of that 
deadline, but yeah, the progress is there but it's not, 
certainly not, going to get us to the deadline.
    The Chairman. I would like to have further conversation 
with you insofar as what you anticipate it would take, from a 
budget perspective, to accelerate this conversion. So we will 
talk further on that.
    Dr. Applegate. Yes, we can provide that.
    The Chairman. Senator Cantwell.
    Senator Cantwell. I want to continue with you, Dr. 
Applegate.
    Can you talk about some of the things that the system 
actually does for people?
    Dr. Applegate. For the volcano system?
    Senator Cantwell. Yes.
    Dr. Applegate. Yeah.
    Well, so, I think the really key thing about volcanoes is 
that and the importance of having ground-based monitoring is to 
have that earliest detection. The way we put it is, you don't 
want to be playing catch-up with an active volcano. You want to 
be able to see that earliest unrest, earliest indications, and 
that's why it's critical to have ground-based monitoring.
    And so we have this, the NVEWS report is identifying, you 
know, with each of the volcanoes, what is the highest threat, 
which are the very highest threat volcanoes, both for local 
populations as well as for distant ones. I mean, I think the 
other key here is, as we saw with the Iceland situation, 
there's no such thing as a remote volcano because of the air 
traffic considerations.
    So we are bringing a range of different monitoring 
capabilities to bear as we can but, you know, the ground-based 
monitoring is a key piece of that. Again, to be able to provide 
as much lead time as possible as we see these potentially 
active volcanoes waking up and then, of course, to be able to 
give as good information as we can, as actionable information 
as we can, to those communities at risk.
    Senator Cantwell. I think, as you just said, that waking up 
is the issue. I'm not a scientist, but I am assuming the reason 
why we are monitoring this is to monitor the behavior of the 
volcanoes.
    I think Mount St. Helens has shown some activity of late, 
and that information allows us to look from a perspective to do 
planning and warning to the communities in case that activity 
does increase. So it is just as it says, an early warning.
    So you have told us about the importance of that. Yet, in 
the last year's budget the Administration proposed cutting that 
early warning system, including cutting funding for the 
development of a LiDAR detection at Mount Rainier. How are we 
supposed to interpret last year's request to eliminate funding 
for this system?
    Dr. Applegate. The FY18 request involved a lot of hard 
choices and essentially focused on our core monitoring 
capabilities, sort of our existing monitoring capabilities, as 
opposed to expansion of those capabilities.
    Senator Cantwell. So where is the Administration now?
    Dr. Applegate. We don't yet know what the outcome is going 
to be, certainly for '18. And you know, should Congress support 
these activities, we'd certainly follow the will of Congress, 
and the '19 budget isn't out yet.
    Senator Cantwell. I appreciate that, but I hope someone in 
the Administration watches this hearing and sees that there are 
communities here who are asking for help and resources, that 
these are serious issues and that monitoring science is a good 
thing and that it gives us a chance to be prepared.
    What I have found very much lacking in the State of 
Washington is if you don't have the information then you can't 
do any of the preparation. We already have a gap, as Mr. West 
is saying, for very logical reasons. It is very easy for a NOAA 
scientist to say to the people on Long Beach, Washington, this 
is the impact of a tsunami if it happens at this degree. But if 
you are talking about a very rural community, as Mayor Branson 
just said, who then is left to do the preparation? How are they 
supposed to do the preparation without the help? As Dr. West 
has said, there is a gap here.
    But guess what? We need good science to begin with and then 
we need to figure out how to bridge this gap.
    So, Mayor Branson, what about--we're now talking about a 
different program, but on the tsunami side. Is there not enough 
money from the Federal Government to the states? Because I 
think these are grants to the states.
    Ms. Branson. Senator Cantwell, there's never enough money--
--
    [Laughter.]
    ----on any level. I'm not being funny here, but that's the 
truth and as most residents and, certainly, Senator Murkowski 
is very much aware, our state is having a fiscal crisis at this 
point.
    So we will be talking to the Governor. And the Governor 
graciously did call Kodiak and talk to me after the earthquake 
happened to see what we could do and what the state could do. 
So we will be revisiting with the Governor about that. And 
certainly, more help is needed financially, as well as 
education, as you just mentioned, and information to residents.
    In our debriefing with our community, we're going to go 
back and make sure that people know where to go, our residents 
know where to go, not on Pillar Mountain, but a higher ground. 
And so, this is an opportunity for not only talking to our 
community, but also talking to the federal and the state 
government about what our needs are and what our gaps are.
    Senator Cantwell. Well, I certainly believe as we have 
approached the same issues in our state--and I am not sure 
which of the witnesses mentioned the Japan tsunami and the 
devastating impacts of that--but this is what we need to do.
    I certainly believe the Federal Government should step in 
and do its share. That is how we got the early warning systems 
that we have now on Long Beach and a very susceptible area of 
our state because of elevation and on the coast.
    I definitely believe that we should have an adequate 
assessment of what an early warning detection system for 
tsunami looks like. The fact that we have been able to get 
these buoys is great because it gives us time, but now we have 
to say what is the system that helps warn our citizens in a 
timely fashion and, in this case, in the middle of the night 
was a very critical issue.
    Dr. Norman, isn't part of the landslide issue getting good 
mapping and information and wouldn't this help in many parts of 
the country as we see changes in weather and more rain events 
that are causing dramatic impacts?
    Mr. Norman. Yeah, there's no question.
    The key to good--understanding landslides is, first of all, 
we found that having high resolution LiDAR, quality level one 
LiDAR is important, and then going through and doing mapping of 
the, or the inventorying of, the known landslides. Landslides 
tend to occur where landslides have been before.
    So it's one of those, but then there's also looking at the 
other terrain and steep terrain. It would benefit the entire 
country, there's no question about that. There's ground 
failures everywhere in the United States of one form or another 
and it certainly is, a key part of it is the landslide mapping 
and the geological mapping that goes along with that.
    Senator Cantwell. I think that what we are seeing is, 
again, I am pretty sure in the Oso event there was a very 
dramatic rain event, larger than what they had seen in that 
window and time period. And I see that happening in other parts 
of the United States, not just in Washington, but throughout 
the United States. So we are having a change in weather events 
that makes it very necessary to have this kind of information.
    Mr. Norman. That's true.
    The precipitation is a key factor in many landslides. The 
Oso landslide certainly had, it was a wet winter leading up to 
that. There are other landslides in our state and across the 
country that are driven by precipitation and that includes, 
certainly, when you have fires and then debris flows 
afterwards. Those are key factors in very rapid landslides that 
can occur as well.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    I am just reminded of our recent visit to Puerto Rico after 
the hurricane there took down so many of those trees. Then the 
wet season comes upon Puerto Rico and the number of landslides. 
I understand USGS has been onto the island, but yes, these 
heavy rain events that you are talking about, combined with the 
other natural disasters, is a double disaster.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    I think this is an important hearing, and Senator Cantwell 
has already picked up on a couple of our key issues in the 
Pacific Northwest.
    I want to start with you, if I could, Dr. Applegate. I am 
going to be on the Oregon Coast for town hall meetings this 
weekend. They will be asking me about tsunamis and my hometown, 
of course, is Portland. We have 12 major bridges spanning the 
Willamette River. We have real concerns about the capacity to 
make sure those bridges can withstand a large earthquake.
    So let me, if I might, with you Dr. Applegate, start with a 
question about the earthquake early warning systems. And 
obviously, we have these proposals to cut the budget. Could you 
tell us, if these cuts go through, what capabilities would 
suffer under the earthquake early warning system specifically?
    Dr. Applegate. So we are currently about half way toward 
the implementation for the earthquake early warning system with 
the Congressional funding support.
    What the President's, the 2018, budget would do would 
basically focus on our existing capabilities for earthquake 
monitoring. So it would not focus on the early warning system, 
it would focus on our current capabilities, what we can deliver 
now in terms of situational awareness.
    Senator Wyden. But no capabilities would suffer, in your 
view, with respect to the earthquake early warning system?
    Dr. Applegate. It's a system that is in development. It's a 
future----
    Senator Wyden. That is a yes or no question. Would any 
capabilities suffer?
    Dr. Applegate. Not current capabilities.
    Senator Wyden. Okay.
    I am going to ask you a question that I would like a 
response on in writing within a week because this is so 
important to me. Your written testimony says the early warning 
system will provide, ``an additional layer of safety and a 
significant boost in capabilities.'' Yet you seem to be 
suggesting that, well, this cut is not going to be that big a 
deal and maybe it is redundant. So I want to have you square 
your written testimony with my question. Can I have that answer 
within a week? It would go to the Chair and the Ranking 
Minority Member.
    Dr. Applegate. Absolutely.
    Senator Wyden. Great.
    Dr. Applegate. Absolutely.
    Senator Wyden. One last question, if I might then, for 
you--where is our wonderful person from the Forest Service? 
There you are, Mr. Casamassa. Thank you.
    Mr. Casamassa, as you know, we have been working hard on 
this Committee. It has been the longest running battle since 
the Trojan War to end fire borrowing and this horrible practice 
that really discourages the prevention that we need. If 
Congress fixes the Forest Service's persistent budgeting issue 
that results in fire borrowing, my view is that would allow the 
agency to have more resources available to tackle the very 
emergencies that we are talking about today. Is that a view you 
share?
    Mr. Casamassa. Well, certainly, if we did have additional 
appropriated dollars that we could allocate toward other 
programs, we could then, actually, deploy resources to look at 
and monitor and evaluate other catastrophic events.
    Senator Wyden. So fixing fire borrowing, specifically. I do 
not want to just go off into the la-la world of more resources. 
Wouldn't ending fire borrowing help you have more resources to 
address emergencies?
    Mr. Casamassa. It would make more resources available, yes.
    Senator Wyden. Right, thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator Daines.
    Senator Daines. Thank you, Chairman Murkowski, and thank 
you for holding this important hearing.
    I want to thank the witnesses today for providing important 
information on what our scientists and the government are doing 
to prepare for and mitigate natural hazards and disasters.
    I am very fortunate. I come from the beautiful and great 
State of Montana. I will say, I didn't get to pick my Montana 
ancestors, but I am sure glad they came to Montana.
    With the beauty that we have in our state, the mountains, 
rivers, the plains and, of course, our national parks, there 
are serious geological and natural hazards, such as landslides, 
avalanches, earthquakes, et cetera. I spend a lot of time 
outside when I am not in Washington, DC. I can tell you, I do 
not have a coat and tie on when I am back home. But because of 
this, it is important that the public, local businesses, ski 
resorts, local governments have the information they need to 
keep Montanans and visitors safe.
    It is also important we have the tools necessary to get 
communities back up on their feet after these hazards occur, 
specifically making sure that electricity and 
telecommunications return quickly.
    I want to thank you, Dr. Applegate and the USGS, for all 
the recent work you have done in monitoring the Yellowstone 
Caldera. I hope that our predictions are true and that the 
eruption is still hundreds of thousands of years away. However, 
your continuous monitoring and updates help put people at ease 
and will provide lifesaving information, if ever needed.
    The question I have for both Mr. Applegate and Mr. 
Casamassa--both of you spoke about the partnerships that your 
agencies engage in to provide information to the public. I know 
that Avalanche.org is an important tool for those that ski at 
our world-class resorts and world-class backcountry. Can you 
tell me some of the other partnerships you have in Montana that 
can provide information to our hikers, our hunters, our 
snowmobilers, skiers, and communities that will keep them safe?
    Let's start with you, Mr. Applegate. I should say, Dr. 
Applegate.
    Dr. Applegate. No, no, sure. No, thank you so much.
    And I'll say I got to do geologic field work in the 
Bitterroot Mountains and spectacular part of your state.
    I'm glad you mentioned Yellowstone. The Yellowstone Volcano 
Observatory is a great example of partnership involving the 
USGS, universities, but also then the state geological surveys, 
including the state survey in Montana. And that is really 
critical because, this was mentioned earlier, you know, we can 
generate scientific information, but the point is, it has to 
get to the people who need that, who have those questions. And 
so, our partnerships with the states are absolutely critical 
for that.
    Likewise with earthquake monitoring, of course, Montana has 
had, you know, back in the '50s, the Hebgen Lake earthquake. 
We're talking magnitude 7 event, so a significant earthquake 
hazard. And there again, the partnership with the Montana state 
survey has been a really important one for us.
    Senator Daines. Thank you, Doctor.
    Mr. Casamassa?
    Mr. Casamassa. Senator, we have three avalanche forecast 
centers--one in Bozeman, one in Missoula and another in 
Kalispell--that provide a wide variety of information 
associated with avalanches for a whole host of uses up to and 
including hunters and fishermen who are going into those kinds 
of avalanche-prone zones.
    We do work with, you know, the Montana Fish and Game. We 
work with the Park's Snowmobile Safety Program as well as the 
State Recreation Trails Program providing that information and 
educating as many people as we can. And then in the Flathead 
area we have the Flathead Avalanche Center out of Kalispell, 
working in conjunction with the Park Service to provide that 
information up there as well.
    Senator Daines. Well the good news is we are having a very 
good snow year, snow well above average which is wonderful for 
snowpack and so forth, but we are also seeing more and more 
Montanans and others access the backcountry. The avalanche risk 
has been great this season, and we have already had some 
fatalities in Montana.
    I am grateful for those who are studying the science of 
avalanches and understanding better what really goes on, an 
incredible field of sometimes still learning about what happens 
with snow.
    What are some of the biggest hurdles the communities face 
after a disaster and how can Congress help to make sure that 
they are back up and running as soon as possible?
    Who would like to take that question? It is, kind of, open 
here to the panel.
    Ms. Branson. Thank you, Senator. I'm Pat Branson, the Mayor 
of the City of Kodiak. We just experienced an almost disaster 
last week----
    Senator Daines. Yes.
    Ms. Branson. ----12:32 in the morning on Tuesday.
    So our needs are great. I was speaking earlier about, we 
have a tsunami siren go off every Wednesday afternoon at two 
o'clock. No one pays much attention to it. I think they will 
now.
    But it's a matter of housekeeping, if you will, is that 
what we need are infrastructure support, siren support, PA 
system support and, certainly, staffing support because our 
command center, we only have people there for 24 hours. So we 
would have to call the state to make sure that they could 
provide assistance to us as well.
    So it's not just equipment. It's infrastructure as well. We 
have a 60-year-old, more than 60-year-old fire station that's 
cracking. That's why I brought the duct tape here showing that 
we can't repair things as we normally do in Alaska.
    Senator Daines. We call that cowboy chrome back in Montana.
    [Laughter.]
    Ms. Branson. It's Kodiak emergency preparedness.
    [Laughter.]
    Not working this time.
    So those are the kinds of things that we would need.
    We were very lucky that we had electricity. We had a phone 
system working which is how we received the tsunami warning.
    And so every community is different with their needs, but 
that's what we are looking at right now. And it's being, having 
that information, from the scientific background and from the 
different agencies and relaying that to our citizens as well 
and on a continuing basis, not just Wednesdays at two o'clock, 
but very frequently as things change.
    So those are the kinds of needs that we have and we just 
experienced, and we'll do a debriefing from our experience from 
last week.
    Senator Daines. Thank you, Mayor.
    Thank you, Chairman.
    The Chairman. Thank you, Senator Daines.
    I am often reminded this time of year of, again, the value 
of things like the Avalanche Monitoring, whether it is in 
Montana, Colorado, or Alaska, we have, a lot of us are skiers. 
I am not the backcountry skier that my sons are, but making 
sure that there is an understanding of avalanche extreme 
conditions and just how safe you are in the outdoors is 
something that we can never overtrain or over prepare for. So I 
appreciate your bringing that up.
    I want to ask a few questions. I love the fact that I get 
the gavel.
    [Laughter.]
    Which some would say that means you have to stay for the 
whole hearing, and that means I get to stay for the whole 
hearing.
    I have a whole series of questions that I would like to 
engage you all in, if we may. This relates to the warnings, the 
early warnings that we are talking about that can help people 
get to higher ground if there is a tsunami coming or, again, 
how we alert people.
    There have been a whole series of articles that have come 
out, post the earthquake last week. There was the discussion 
about the buoy that showed a big wave--why, in Alaska, a buoy 
showed a big wave that wasn't there--the case of the phantom 
tsunami. You have the buoy monitoring systems out there that 
register one thing, how the communication is shared.
    I was woken up on Tuesday morning to a phone that was just 
wild with communication from friends all over Alaska. But I 
got, not only the tsunami warning that came from, I guess it 
was the AlaskaLandMine.com, I don't know where that one comes 
from, but from the Tsunami Warning Center. I have one here from 
my QuakeFeed that gives me the magnitude of the different 
quakes afterwards and the timing, the emergency alert that I 
received. And then the chatter that goes on, invariably, that 
goes on because we all have access to these. And the last one 
was, this was not an official one, this was friend alert, 
``Just heard Kodiak channel is empty.''
    So the swirl of news and, kind of, the not-so-news that is 
shared that causes anxiety, panic at times and real fear, is 
something that, I think, from an emergency management 
perspective we all want to make sure that the information that 
we are communicating is accurate and almost as instantaneous as 
we can make it.
    In one of the articles that I was reading about, and this 
goes to your comments, Dr. West, about collaboration between 
the agencies, there was a discussion about parts of the 
emergency alert system that failed.
    You have the National Tsunami Warning Center there in 
Palmer. You have the intersect with the National Weather 
Service. You have some with the EMnet, the Emergency Management 
Network, the state contracts for that service. IPAWS, or the 
Integrated Public Alert and Warning System, is run by the 
Federal Government. So you have lots of things going on at the 
same time. It is my understanding we will learn more, certainly 
about the Emergency Alert System and where we saw failures 
there.
    Mayor Branson, you mention that we got lucky here with 
this, that we did not have a tsunami. But it certainly woke the 
people of Kodiak up and I talked with the Mayor of the 
Aleutians East Borough. I know down in Sand Point, in King 
Cove, folks heard the sirens, went through the drill, went to 
higher ground. You could say it was a really good trial run in 
which we learned a lot and nobody was hurt.
    But I would like to hear, and I will open this up to all of 
you here, in terms of how we can do a better job with the 
communication that goes on.
    I understand, Dr. West, that some of Alaska's earthquake 
monitors were actually offline at the time of the quake last 
week. So I am curious to know about how that impacted anything; 
but also, the steps that we go through to notify emergency 
managers and the partnerships with NOAA when we have a tsunami 
warning, an earthquake warning. How are we doing and what do we 
need to be doing better? Because I think about your statement, 
Mayor Branson, that Tuesday, or excuse me, Wednesday at two 
o'clock everybody just hears the sirens and they think--oh, 
it's two o'clock. They don't think about tsunami. They think it 
is two o'clock. We do not want people to get numb to the 
drills, but we also do not want to overly concern people. It is 
a fine line there.
    So if we can just begin the discussion there, and I will 
let anyone jump in. Dr. Applegate, do you want to start?
    Dr. Applegate. Yeah, absolutely.
    You know, this is, it's about getting the right information 
to the right people at the right time. And that is made more 
complex by the fact that communication is no longer just a one 
way from the emergency manager, you know, to the folks.
    The Chairman. Right.
    Dr. Applegate. There's all of that interaction, person to 
person. And one of the things that we found is the criticality 
of delivering our information in multiple streams.
    So, for example, we actually will use the Twitter feeds. We 
both collect information as people, you know, they will 
themselves be feeling the shaking. You can actually watch the 
seismic waves going out as people pick that up. But we can also 
then inject our authoritative information into that 
bloodstream, as it will, of communication because people want 
the authoritative information. And it's figuring out how do we 
make sure that we get it there. And part of that is getting it 
in the form, not just the alerts that go to, you know, 
emergency management, but also getting that information out 
there, whether it's through tweets or other means.
    The Chairman. So what about the concern that comes when you 
spread it too far? The example I will use is that folks in 
Anchorage where my husband was that night, our home there, they 
get the tsunami alert. They do not need the tsunami alert in 
Anchorage, but I understand that it is an issue where you 
have--the way it was described is an issue dealing with the 
intersection of weather service forecast areas and census 
areas. And so, you want to err on the side of alerting more 
people than not. In other words, we do not want to fail to 
alert some. And so, in an overabundance, possibly, of caution, 
more people get the alert. But then, when you get multiple 
alerts and it is ``always a false alarm,'' you have people, 
kind of, tuning that out. How do we bridge that? Anybody have 
any ideas? Dr. West?
    Dr. West. Yeah, let me address that and maybe in a somewhat 
positive note.
    No, but you've captured well that that requires the 
intersection of everyone from the scientific community through 
to the municipal level on an emergency management need. Those 
connections are what's required.
    And on the tsunami side, Mayor Branson had an image of a 
graphic here showing projected inundation zones in and around 
Kodiak. That's actually a brand new publication that came out 
in September of this year, updated to specifically incorporate 
the lessons learned during the Japan earthquake which Mr. 
Norman referenced.
    That's actually a really dynamic, vibrant, new study, if 
you will, made possible by a program that was slated, year 
after year, for being cut until the Tsunami Warning Education 
Reauthorization Act was passed again last year.
    That group of emergency managers, scientists, and community 
folks is meeting right now in Seattle. Almost all the tsunami 
scientists in this country are in Seattle right now. I wish 
Senator Cantwell were here to hear that. But they're gathering, 
our once annual meeting, to specifically address those kinds of 
issues.
    So while it is not solved at all and there are, I think, 
the Anchorage alert issue highlights some of the challenges and 
the hyper-connectedness of all these different communication 
channels that you see on your phone and certainly folks like 
the USGS grapple with them at an operational level. While we 
certainly don't have those all figured out, it's the existence 
of programs like that, the continued existence, year in and 
year out, that builds those relationships that are needed.
    It was fascinating to sit--Mayor Branson and I met 
yesterday, and it was fascinating to debrief her views of this 
event last week. She has a particular sphere of knowledge and 
influence which is very different than mine. And finding those 
points of intersection, but that takes, kind of, that takes 
forced collaboration.
    The Chairman. It is an issue that, again, I think we learn 
from these events. We have learned, not only from this event, 
earthquake, potential tsunami in Alaska, but when we think 
about the alert that the people of Hawaii faced about a month, 
well, a little less than a month ago now. A different kind of 
alert, not a natural hazard, but a very threatening alert to 
the public. And when we think about these emergency systems 
that broadcast to communities, trying to do early warning. 
Again, making sure that there is an accuracy, but also a 
timeliness is something that I think we recognize is absolutely 
critical.
    I wanted to ask you, Dr. Applegate, and this is kind of a 
follow-up on Senator Wyden's question because I believe that he 
was trying to get to the adequacy of a funding issue for 
earthquakes and warning systems.
    But it is my understanding that what we are doing with 
earthquake early warning is a system that is not yet up and 
operational all throughout. It has been tested in Washington, 
Oregon, and California. I understand that it is being used in 
Japan. But it is not a system that is fully implemented and in 
place. I don't think it is being used in Alaska, is it, Dr. 
West?
    Dr. West. No.
    The Chairman. So, is that--what is the status of the 
earthquake early warning and how is that different than what we 
are monitoring currently when it comes to our earthquakes?
    Dr. West. Sure.
    So, a key for about earthquake early warning, it is built 
on our existing monitoring capabilities----
    The Chairman. Good.
    Dr. West. ----and essentially is, can we get a dense enough 
network and fast enough computing and algorithm and telemetry, 
and all of those pieces, to be able to beat the strong shaking?
    So, a key point is that it is an extension, it's a new 
tool, it's a new capability that is built and requires that 
existing investment on our current monitoring capabilities.
    There are a number of countries that have deployed 
earthquake early warning systems. Japan is the most advanced 
and has had it in place for a number of years. But there are 
several other countries as well.
    We have a prototype system for the West Coast for 
California through Washington that is currently in a, sort of, 
a beta test phase. There's some use by test users; for example, 
the Bay Area Rapid Transit System users for whom, at this 
point, like a false alarm isn't a big problem. They slow the 
trains down for lots of reasons, right? So there's one. There's 
a use that can have a fairly high tolerance for a missed alert. 
On the other hand, there are lots of other uses that you need 
to have that fully developed system.
    So we're very much in a prototype phase. And so, it is not 
something that is broadly, publicly available yet. It is a 
system being built. But the key is it's being built on top of 
that existing monitoring, and it's the strengthening of it.
    The Chairman. Does it work well in Japan where it is fully 
implemented?
    Dr. Applegate. Absolutely.
    In Japan, I think a good example would be--so the magnitude 
9 earthquake that we had discussed, one of the capabilities 
with the earthquake early warning system is to slow down the 
bullet trains. They had, I believe, 26 bullet trains operating, 
you know, several hundred miles an hour. They're able to slow 
those trains down before the strong shaking arrives. They had 
no derailments from that event. Think of the number of folks 
who were on that.
    There was a successful earthquake early warning. There are 
relatively few fatalities from the earthquake itself, but 
that's, of course, both a testament to the quality of their 
building codes, again, all of those things you do before the 
event, the quality of building codes, but also the early 
warning for the earthquake.
    The Chairman. You are saying that in order for us to move 
forward with a more robust early warning system, whether on the 
Pacific Northwest, Alaska or wherever, the monitoring stations 
that we have in place, are, kind of, the base for that.
    Dr. Applegate. Exactly.
    And it's a densification of those stations and ensuring 
that they have the fastest telemetry, all of that. So, it's an, 
really it's an end state outcome of this Advanced National 
Seismic System that we're building, you know, in partnership 
with the regional seismic networks.
    And it would be an additional capability that a, you know, 
a robust monitoring network can deliver on top of this, sort 
of, real-time, after the event. So again, it's--we're trying to 
deliver the fastest possible information, the best information 
that we can.
    The Chairman. Sure.
    Senator Cortez Masto, I have been having a wonderful time 
with this panel.
    [Laughter.]
    But you are more than welcome to jump in and have a 
conversation.
    Senator Cortez Masto. Thank you.
    And let me just say thank you for the hearing today and all 
of you coming here. I apologize, I had two other Committee 
hearings. I am trying to cover everything, but thank you for 
your testimony, your written testimony. So helpful.
    And let me start with Dr. Applegate, because you mentioned 
Nevada--I am from Nevada--in your speaking points as well.
    I don't know if you are specifically aware of the work that 
is being done and the collaboration. If you are, I would love 
you to elaborate, but let me just highlight because I know this 
is something important for us.
    There is a partnership between the University of Nevada, 
Reno, with the Department of Energy's Berkeley National Lab, to 
develop an advanced computer-based tool to predict the 
earthquake response of critical nuclear facilities during an 
earthquake. It will also provide important information on 
solving earthquake soil-structure interactions for many 
applications, to also include benefits for transportation 
systems, pipelines, hospitals, schools and other public 
infrastructure.
    I am aware that this important earthquake engineering 
research that takes place there is something that is, 
obviously, important for USGS and the work that you do as well.
    I am wondering if you can elaborate, not only on that, but 
the importance of your interaction with and partnerships and 
collaborations that you have going, ongoing, across the 
country.
    Dr. Applegate. Absolutely.
    And I'll say the University of Nevada, Reno, is one of our 
key partners. They maintain regional seismic monitoring and 
that's been a long-time collaboration.
    I think what the partnership that you're describing is a 
very key part of this, what we call this broader National 
Earthquake Hazards Reduction Program. It is about taking that, 
you know, whether it's, you know, foundational research, 
whether it's in the geosciences or in engineering and then 
translating that into applications. And as you described, one 
of the most important applications is critical infrastructure.
    Senator Cortez Masto. Right.
    Dr. Applegate. There was a question earlier about, you 
know, what are some of the most important aspects of recovery 
from an event? And it is the dependence on your critical 
infrastructure. How fast you come back up is going to depend on 
the lifelines and certainly the power grid and so forth. So I 
think the partnership you're describing is getting at one of 
the most critical aspects of earthquake preparedness.
    Senator Cortez Masto. Thank you for saying that.
    Do you mind? Here is the other issue that is concerning: 
These are long-term projects and they require long-term 
funding, and quite often we here in Congress don't think of 
funding in a long-term perspective and we are doing it on an 
annual basis. So when you are in the middle of doing important 
research like that and then all of a sudden, the money is cut 
off for that research, the implications not only to the project 
that is going and the work that is being done are dramatic, but 
then to long-term impacts to all of our communities.
    Can you talk a little bit about just the funding piece and 
how important it is long-term, and for that commitment long-
term to address the needs that you see?
    Dr. Applegate. I think for earthquakes, in general, and 
some of these other geologic hazards that we're talking about, 
one of the big challenges is that these are very high-
consequence events, but events that for any given location, 
they're not part of your everyday existence. And so, it is a 
classic area where government investment, it may be looking at, 
sort of, very long-term payoffs.
    It's also an area where the criticality is in long-term 
monitoring, to be able to build these datasets, both for the 
real-time applications but also to improve our understanding of 
what it is, what is that hazard that we're dealing with?
    So, I'll say certainly, the annual appropriations cycle is 
not necessarily conducive to that, but things like this long-
standing National Earthquake Hazards Reduction Program 
partnership that was authorized by Congress, having those, sort 
of, longer-term, you know, essentially, it's a statement of the 
importance of this investment over the long haul that is very 
important.
    Senator Cortez Masto. I appreciate that. Thank you.
    I notice my time is just about up.
    I thank you all for coming and it is good to see some of 
you again. I appreciate the comments today and the written 
comments that you have provided.
    Thank you.
    The Chairman. Thank you, Senator.
    Just a couple more questions here.
    Dr. West, I asked the question, you affirmed it, but I 
would like to ask why several of the Alaska earthquake monitors 
were offline?
    Dr. West. Sure.
    The Chairman. Is it funding? What is our situation with our 
monitors?
    Dr. West. Do I have to answer that?
    Twenty minutes or so before the earthquake occurred, 
unrelated, Golden Valley Electric Association had a modest 
regional power outage. The UAF Geophysical Institute, where my 
organization is located, weathered that relatively well; 
however, there was networking equipment that was offline at 
that time. So, essentially, the Alaska Earthquake Center, all 
of its data and products were dark for about an hour or so. 
Yeah, not a proud moment, really. We've been clear with our 
stakeholders.
    The Chairman. So totally coincidental to the fact you were 
about to have----
    Dr. West. Correct, not caused in any way.
    The Chairman. Wow.
    Dr. West. I know, we make up these scenarios to plan for 
and test internally, say, oh, that won't happen, you know, well 
they do.
    But we've been clear with stakeholders for several years 
now that we do not have backup systems in place.
    The Chairman. You have no backup systems?
    Dr. West. We do not have modern continuity of operations. I 
mean, the reason is fairly simple. Over the last half dozen 
years every one of our federal and state funding lines have 
been cut back. A few years ago, I reduced my staff by nearly a 
third. I laid off career--painfully laid off career 
individuals.
    Last year we received a $1 million short-term infusion, 
through you, frankly, which was, I cannot tell you in the last 
few months how much of a difference that has made. But I've 
described this to many people as more like a stay of execution.
    Yeah, I don't know where to go from there. I mean, in order 
to maintain meaningful monitoring in Alaska and, frankly, many 
of the states on this Committee--Utah, Nevada, Oregon, 
Washington--they're having the same issues, same issues. I'd be 
happy to put anyone in touch with my peers there to explain. 
But in order to maintain, you know, a meaningful monitoring, we 
need the new collaborations, the base funding, the 
Congressional support that we're here talking about today. So 
it's not fun to talk about, but this is what a declining 
funding environment in the natural hazards looks like.
    The Chairman. Well, this is important information. The 
funding is certainly one part of it. But it is a reminder to us 
that you want to have a backup to your emergency network 
systems, your monitoring systems.
    We talk about the need for redundancy and I want to turn to 
you, Mayor Branson, because your community, you are on an 
island. You are a pretty significant island, but you are an 
island, nonetheless. And when an emergency happens, you are on 
your own.
    Ms. Branson. We are.
    The Chairman. Fortunately, you have the largest Coast Guard 
station there on Kodiak. But as soon as that warning hits that 
a tsunami is coming, the Coast Guard needs to get their assets 
out of there because they are right in the path of a tsunami 
coming their way.
    So you think about what happens in a natural disaster and 
when you are a remote state, like Alaska or Hawaii or Puerto 
Rico or the U.S. Virgin Islands. When disaster happens you are 
your buddy system there with everybody who happens to either be 
on that island or in that remote area. And I think, when we go 
through drills, when we think about how we better prepare, 
whether it is earthquakes, tsunami, flood, there is a 
realization and a recognition that in certain parts of the 
country emergency preparedness takes on even more criticality 
because you do not have neighboring states that can send their 
assets. We have a significant earthquake that takes out, 
whether it is ports, harbors, airports, we are significantly at 
a disadvantage.
    So I asked yesterday, when we were visiting, Mayor, about 
whether or not our mayors, our leaders at the local levels, 
talk about how you need to prepare as isolated communities for 
these natural disasters that really leave you in, perhaps, a 
more vulnerable position than others. You know, your food 
sources are cut off, and access to medical care to a certain 
extent.
    This is a hearing about natural disasters and natural 
hazards, I understand that, but I think we are also talking 
about the public awareness as to how one responds. If you would 
share just a little bit here.
    Ms. Branson. Well, I think there are a couple of things to 
point out and I think Dr. West has pointed some of this out, as 
you have, Senator Murkowski.
    And that redundancy and having a backup plan and, most 
importantly, being proactive as much as possible because we 
find ourselves in these, kind of, disasters reactive, not 
knowing what kind of resources that might be available, as 
you've just described. And we are very vulnerable, certainly 
not just Kodiak, but Alaska and other remote communities as 
well. So how we buddy up, if you will, with other communities 
and share information, I think that's most important. Dr. West 
mentioned that as well.
    So I think it's being proactive, collaboration and sharing 
that information, as we talked about yesterday with the coastal 
mayors of Alaska, maybe even a broader sense with the Pacific 
Northwest coastal mayors as well, and communities and to learn 
from one another how information is shared and being more 
proactive in a way that's best to protect our communities and 
our residents.
    The Chairman. Thank you.
    Again, it is a warning for us all.
    We have not touched much on landslides and that is 
something that, unfortunately, I think we are seeing more of 
these events in different parts of the country.
    Mr. Casamassa, after the 2015 landslide in Sitka, local 
managers there partnered with Forest Service, USGS, and others 
to conduct this risk mapping. I was actually just reading in 
the news clips yesterday about what the community is doing now 
that they have that mapping, some of the decisions that they 
need to make. You have a community that is looking for areas 
that they can build out, but you now have, perhaps, a better 
indication in terms of the vulnerability. I want to ask you, 
kind of, where we go next now that we have that mapping?
    But to the others on the panel, Dr. Applegate, Ms. Berry, 
we seem to be doing a relatively good job in terms of the 
monitoring, when we have been talking about earthquakes and 
volcanoes and tsunamis, avalanches, but it does not seem that 
we are doing as much as we need to be doing when it comes to 
landslides themselves and ensuring that we are mapping these 
high-risk areas and then notifying the public when their lives 
and property are in danger.
    Again, sitting next to Senator Cantwell and just reliving 
the horror of the Oso incident, but now to know that you have 
Washington residents that are watching daily this Rattlesnake 
Ridge, kind of, creeping along. And okay, maybe it is 
stabilized now, but can you speak a little bit to where we are 
with doing a better job when it comes to landslides?
    And also, if you could help me identify what federal agency 
should be coordinating these efforts. Who should be the lead 
agency when it comes to landslides?
    Mr. Casamassa, you can begin.
    Mr. Casamassa. Yeah, thank you, Senator.
    You know, one of the things that I think is really, would 
be very advantageous is after we have mapped out the hazards, 
after we have looked at specifically where the infrastructure 
or community assets are at risk, we do a bit of planning around 
risk management and for the Forest Service----
    The Chairman. Who is ``we,'' Mr. Casamassa?
    Mr. Casamassa. We, the collective, the community.
    The Chairman. Okay.
    Mr. Casamassa. Any entity that has a stake in it.
    The Chairman. So not just the federal agencies?
    Mr. Casamassa. Absolutely.
    The Chairman. Yes.
    Mr. Casamassa. It would be, certainly, locally based.
    But for the Forest Service piece of it, I think, it would 
be advantageous to know with the community where we could take 
actions that would potentially, would be something that we can 
pre-position on the National Forest, certain aspects of ingress 
and egress, we need to get to this spot in order to do these 
kinds of things the community says. And then, instead of trying 
to figure that out and be reactive, as Mayor Branson said, we 
should be looking at--okay, we would need to pre-position 
assets here. We need to build catchment basins here. You know, 
just being a bit more thinking through what are the risks, 
where are the assets, how could we take actions that could 
mitigate the damage that could occur. And we could be a part of 
that on the National Forest.
    The Chairman. And I know, Mayor Branson, in Kodiak, you 
have real concern of potential for landslide right there off of 
Pillar Mountain.
    Ms. Branson. We do and it's right above Pier Three where 
all of our goods come in on ships, barges, twice a week and 
that would also cut us off from the Coast Guard base and 
there's also a potential hazard out by the Coast Guard base 
itself. So we know the Coast Guard is there to assist us in 
such a disaster. So landslides, mudslides, we've had mudslides 
from Pillar Mountain that have wiped away homes. So it's 
certainly an ongoing hazard for Kodiak residents as well.
    The Chairman. What about who should be the lead agency? Any 
comment on that?
    Mr. Norman?
    Mr. Norman. Yes, I don't think there's any doubt that the 
USGS should be the lead agency for the federal agencies. They 
have established expertise on landslides. They have integral 
working relationships with the State Geological Surveys, and 
they have a proven track record of managing other natural 
hazards programs. So I think it's the USGS for the federal 
agencies.
    The Chairman. Do you agree, Dr. Applegate?
    Dr. Applegate. This is a very important part of our hazards 
mission and what I think is so good about the Landslide 
Authorization bill that's being considered is the recognition 
that while there is a key federal role, and absolutely, we see 
this as an important part of our task. This is such a 
distributed hazard and it's one that plays out on, you know, on 
local scales all over. It's the partnerships with the states 
that is absolutely essential.
    We have expertise that we can bring to bear to help 
support, you know, Dave Norman and Karen Berry and their 
colleagues. But they have the folks, you know, on the ground 
who are doing much of the work in this. We're seeing this play 
out right now in California with the debris flows there. We 
work very closely with the Forest Service and other land 
management agencies after wildfires, for example, to support 
the burned area emergency response teams. We'll do these hazard 
assessments. When it comes to the, really, the boots on the 
ground doing assessments like what's happening in the Thomas 
fire, it's the California Geological Survey that's there 
supporting CalFire. And as Dave mentioned, I mean, this is an 
area where the criticality, you know, we do not have a national 
landslide hazard assessment the way we do an earthquake 
assessment.
    The Chairman. Do we need one?
    Dr. Applegate. I think it would be, yeah, I think it would 
be very beneficial. It certainly is a long-term goal that we've 
set. The National Academy has looked at the USGS landslide 
program and really, when it talks about it, the Academy before 
talked about a national program. And again, emphasizing it's 
not a federal program, it's one that does have to involve many 
agencies at both the federal and state level.
    But additional geologic mapping, high resolution LiDAR, all 
of these are key, enabling technologies, enabling capabilities 
that could then form the building blocks to eventually get to 
that point of a national landslide hazard assessment.
    The Chairman. I was struck by Ms. Berry's comments though 
that in Colorado you are so far behind when it comes to 
mapping.
    In Alaska, I was at a ceremony where we celebrated 52 
percent of Alaska being mapped. Only in Alaska would you 
celebrate 52 percent.
    [Laughter.]
    But it seems like we are actually doing much better when it 
comes to the LiDAR. We are at 92 percent coverage on that, I 
understand.
    But it is hard then to be able to talk about this 
collaboration that you are discussing, Dr. Applegate, if the 
states don't have that map, that base mapping to begin with. So 
it seems to me that there is an inequity, if you will, around 
the states before we can get to any kind of a national 
understanding of what the hazards really are.
    Senator Cortez Masto, did you have further questions?
    Senator Cortez Masto. Just one follow-up--and I may have 
missed this conversation.
    Obviously I am from the West and fire management is key. 
And it is not just management to prevent fires, forest fires, 
right? We know that after a fire has come through and 
devastated the land, there is the concern of rain and flooding 
and landslides. And so, there has to be remediation that occurs 
as well.
    I am curious. This discussion on state, local and federal 
coming together and the protocols and policy of who takes the 
lead in how you manage that. Is that something that every state 
is working with the federal agencies on, that there is a policy 
or protocol to address those needs because they are going to be 
different in each state? That is my first question.
    And the second is, at the federal level I know you do not 
have enough resources. So how do you triage? Where to put the 
resources at the time?
    Mr. Casamassa, I would start with you.
    Mr. Casamassa. Yeah, thank you, Senator.
    And for the most part, I think it varies from state to 
state in who would take the lead and how best that coordination 
occurs. At least that's been my experience and I know that 
plays out in that way.
    You know, one of the things that we do, and Dr. Applegate 
alluded to it, is that in the burned area emergency rehab work 
that we do and our response is centered around determining 
which areas are the most impact, where is there medium impacts 
as well as low. And then we really focus in on that triaging 
around the more severely burned areas to do the kind of work 
that we need to for remediation.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you.
    Well, I thank all of you. We have hit the noon hour and I 
think that this has been good, important discussion.
    Hopefully, we learn, again, from these natural hazards that 
do not bring about disaster so that in the event that we do 
have that next big earthquake, that next big tsunami, the next 
big volcanic eruption, that there is a level of awareness and 
preparedness.
    I often share with folks a situation some years back when 
my boys were--it was spring break and they were home skiing for 
spring break, as good Alaskan boys would. They had taken a 
buddy of theirs from Maryland, and the mother was concerned 
because he was going to the wilds of Alaska. I said, don't 
worry, this is going to be a very safe spring break. The day 
that they were due to fly back, the volcano blows. And so, air 
traffic is grounded. I have to call the mom in Maryland and 
say, they will be here tomorrow.
    [Laughter.]
    Only the next day the airplanes also were not flying and I 
had to call her again and say, well, it is fine in Alaska, but 
the planes are grounded because we are dealing with a little 
bit of fallout.
    [Laughter.]
    This is getting to be a really good spring break for the 
boys. The third day comes and, of course, now all the flights 
are backed up and so I can't get them out for the following 
day. The next morning that they go to the airport there is an 
avalanche that has come across the road and they can't get to 
the airport. They missed their flight. It was the best spring 
break that those boys ever had.
    [Laughter.]
    But it was for this mom, who says to me, what happens in 
Alaska that you have all of these natural disasters, natural 
hazards?
    Fortunately, no one was hurt. It was a wonderful spring 
break for them. But there was a lot of inconvenience. And I 
think we recognize that the more prepared we can be, the better 
off we will all be.
    I thank you for the expertise that you have shared with the 
Committee today. We have a lot of work to do. It comes with 
resourcing. It comes with monitoring. It comes with 
preparedness, and we appreciate all your efforts.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:03 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              


</pre></body></html>
